TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Evaluation of the Computation of Economic
                              Stimulus Payments



                                       September 4, 2008

                              Reference Number: 2008-40-174




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              September 4, 2008


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                     (for) Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Evaluation of the Computation of Economic
                                 Stimulus Payments (Audit # 200840030.02)

 This report presents the results of our review to assess the accuracy of the Internal Revenue
 Service’s (IRS) computation of the economic stimulus payment and the adequacy of controls to
 prevent ineligible individuals from receiving a payment. The scope of this review was limited to
 an assessment of controls established and economic stimulus payments generated by the IRS as
 of June 13, 2008. This review is the second in a series of reviews designed to provide Congress
 with an ongoing status of the IRS’ implementation of the Economic Stimulus Act of 2008.1

 Impact on the Taxpayer
 Signed on February 13, 2008, the Economic Stimulus Act of 2008 was passed to energize the
 national economy. The most significant part of the Act is the economic stimulus payment to
 individuals. Our analysis of 129.1 million economic stimulus payments generated as of
 June 13, 2008, determined that the IRS correctly calculated 128.5 million stimulus payments
 (99.6 percent) totaling $89.2 billion. In addition, IRS programs ensured that payments were not
 issued to individuals who were not entitled to receive an economic stimulus payment.

 Synopsis
 As required in the Economic Stimulus Act of 2008, specific filing and income requirements must
 be met for an individual to qualify for an economic stimulus payment. For example, an

 1
     Pub. L. 110-185, 122 Stat. 613.
                  Evaluation of the Computation of Economic Stimulus Payments




individual must have an income tax liability or at least $3,000 in qualifying income,2 must file a
Tax Year 2007 return with a valid Social Security Number, and cannot be claimed on another
person’s tax return. The economic stimulus payment also phases out as an individual’s income
increases.
In preparation for computing the amount that individuals would receive for an economic
stimulus payment, the IRS was required to take a number of
actions. These include:
                                                                                Significant computer
•   Coordinating with the Department of the Treasury to
                                                                             programming was required
    ensure correct interpretation of the law.                                   to enable the IRS to
                                                                            compute economic stimulus
•   Obtaining and reviewing the specific language included in                   payments based on
    the law to identify requirements that must be met to                     characteristics included on
    qualify for an economic stimulus payment.                                       tax returns.

•   Developing computer programming to identify
    characteristics included on a tax return that result in an individual not qualifying for an
    economic stimulus payment.
•   Developing computer programming to identify characteristics included on a tax return to be
    used to calculate the economic stimulus payment.
The IRS correctly calculated 99.6 percent of the 129.1 million economic stimulus payments we
reviewed. In addition, IRS programs ensured that payments were not issued to individuals who
were not entitled to receive an economic stimulus payment. These include individuals who
1) did not have a valid Social Security Number; 2) did not meet qualifying income, gross
income, and net tax liability requirements; 3) had income that exceeded requirements; and
4) indicated that they can be claimed by someone else on a tax return.
Although the accuracy rate for economic stimulus payments was very high, we identified
539,550 returns (0.4 percent) for which our calculation of the payment and the IRS’ calculation
did not agree. Most of the differences we identified resulted from business decisions made by
the IRS in concurrence with the Department of the Treasury, taxpayer errors, and/or tax software
errors.
During the course of this review, we monitored a number of other issues related to economic
stimulus payments. The issues were monitored to identify the cause and actions taken by the
IRS to address the concerns, which included duplicate paper tax returns filed only to claim the
economic stimulus payment, Understanding Your Economic Stimulus Payment (Notice 1378)



2
 Wages; tips; net self-employment earnings; nontaxable combat pay; and some Social Security, Veterans Affairs
disability, and Railroad Retirement benefits are types of qualifying income.
                                                                                                                2
                   Evaluation of the Computation of Economic Stimulus Payments




sent to the wrong individuals, direct deposits sent to the wrong bank accounts, and missing
Refund Anticipation Loan3 indicators.
The next phase of our assessment will evaluate IRS efforts to ensure that 1) all individuals
entitled to an economic stimulus payment receive one, and 2) the IRS complies with the
provision of the law that prevents issuance of economic stimulus payments after
December 31, 2008. Our assessment will also evaluate IRS efforts to implement provisions
included in the Heroes Earnings Assistance and Relief Act of 2008,4 which the President signed
into law on June 17, 2008. The Act amends the Economic Stimulus Act of 2008 so that
thousands of military personnel will receive an economic stimulus payment regardless of
whether they, their spouses, or their children have valid Social Security Numbers.

Response
We made no recommendations in this report. IRS management agreed that the accuracy rate for
the economic stimulus payments was very high. Management’s complete response to the draft
report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report results.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




3
  A Refund Anticipation Loan is a short-term loan based on the taxpayer’s expected income tax refund and is a
contract between the taxpayer and a lender.
4
  Pub. L. 110-245, 122 Stat 1624.
                                                                                                                3
                      Evaluation of the Computation of Economic Stimulus Payments




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Accuracy Rate for Economic Stimulus Payments Was Very High.......Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 9
          Appendix III – Report Distribution List .......................................................Page 10
          Appendix IV – Management’s Response to the Draft Report ......................Page 11
      Evaluation of the Computation of Economic Stimulus Payments




                     Abbreviations

IRS            Internal Revenue Service
RAL            Refund Anticipation Loan
                   Evaluation of the Computation of Economic Stimulus Payments




                                            Background

The Economic Stimulus Act of 2008,1 signed on February 13, 2008, was passed to energize the
national economy. The most significant part of the Act is the economic stimulus payment to
individuals, which is a credit for Tax Year 2008.
The payments are being estimated using information           As of June 13, 2008, the
reported on Tax Year 2007 tax returns and issued         Department of the Treasury had
in 20082 so individuals can benefit from the                issued about 76.5 million
payments as soon as possible. Individuals who             economic    stimulus payments
                                                              totaling approximately
qualify for a larger economic stimulus payment as
                                                                    $63.9 billion.
a result of changes between their Tax Years 2007
and 2008 returns will receive the additional payment
when they file their Tax Year 2008 returns (generally between January and April 2009).
Individuals who receive more than they would have if the payment had been calculated using
information from their Tax Year 2008 returns will not be asked to pay back the excess. The
economic stimulus payment will not increase the amount of tax an individual owes or reduce an
individual’s refund for Tax Year 2008. The Department of the Treasury issued the first
economic stimulus payments via direct deposit on April 28, 2008.
Included in the language of the Act are specific filing and income requirements that an individual
must meet to qualify for an economic stimulus payment. For example, an individual must have
                                      an income tax liability or at least $3,000 in qualifying
                                      income,3 must file a Tax Year 2007 return with a valid
       To receive an economic         Social Security Number, and cannot be claimed on another
    stimulus payment, individuals
       must have a valid Social
                                      person’s tax return. The economic stimulus payment also
     Security Number and not be       phases out as an individual’s income increases. The
   claimed on another person’s tax    amount of the payment will be reduced by 5 percent of
                return.               every $1,000 that an individual’s adjusted gross income4 is
                                      greater than $75,000 ($150,000 for married couples). In
                                      addition, residents of the five United States Possessions
who file a U.S. Individual Income Tax Return (Form 1040 series) should not receive an
economic stimulus payment from the Department of the Treasury. These individuals will receive



1
  Pub. L. 110-185, 122 Stat. 613.
2
  Unless otherwise noted, all dates in this report are calendar year.
3
  Wages; tips; net self-employment earnings; nontaxable combat pay; and some Social Security, Veterans Affairs
disability, and Railroad Retirement benefits are types of qualifying income.
4
  Adjusted gross income is total income minus adjustments.
                                                                                                         Page 1
                   Evaluation of the Computation of Economic Stimulus Payments




their payments from their provisional Governments under a separate provision of the Economic
Stimulus Act of 2008.
In preparation for computing the amount that individuals would receive for an economic
stimulus payment, the Internal Revenue Service (IRS) was required to take certain actions,
including:
•   Coordinating with the Department of the Treasury to ensure correct interpretation of the law.
•   Obtaining and reviewing the specific language included in the law to identify requirements
    that must be met to qualify for an economic stimulus payment.
•   Developing computer programming to identify characteristics included on a tax return that
    result in an individual not qualifying for an economic stimulus payment.
•   Developing computer programming to identify characteristics included on a tax return to be
    used to calculate the economic stimulus payment.
Most individuals who included their bank account information on their tax returns had their
economic stimulus payment directly deposited into their bank accounts. However, the IRS noted
that a paper check would be sent to an individual who:
•   Did not include bank account information on the tax return.
•   Used a Refund Anticipation Loan (RAL).5
•   Had the return preparation fees paid out of his or her tax refund (commonly called a Refund
    Anticipation Check).
The IRS’ policy is to issue paper economic stimulus checks to these individuals to ensure that the
payments are received by the individual instead of the financial institution or tax preparer who
provided a RAL or a Refund Anticipation Check.
This review was performed at the IRS National Headquarters in the Wage and Investment
Division and the Modernization and Information Technology Services organization in
Washington, D.C., during the period April through July 2008. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our finding and conclusions based on our
audit objective. The scope of this review was limited to an assessment of the controls in place
and economic stimulus payments generated by the IRS as of June 13, 2008. However, we
present the most current data available from the IRS or the Department of the Treasury when

5
 A Refund Anticipation Loan is a short-term loan based on the taxpayer’s expected income tax refund and is a
contract between the taxpayer and a lender.
                                                                                                          Page 2
                Evaluation of the Computation of Economic Stimulus Payments




possible. We will continue to assess the IRS’ actions as it progresses with issuance of economic
stimulus payments. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                          Page 3
                    Evaluation of the Computation of Economic Stimulus Payments




                                       Results of Review

The Accuracy Rate for Economic Stimulus Payments Was Very High
Based on our analysis of 129.1 million economic stimulus payments generated as of
June 13, 2008, the IRS correctly calculated 128.5 million stimulus payments (totaling
$89.2 billion), which is a 99.6 percent accuracy
rate. In addition, IRS programs ensured that             Controls prevented ineligible
payments were not issued to individuals who were         individuals from receiving an
not entitled to receive an economic stimulus             economic stimulus payment.
payment. These include individuals who 1) did not
have a valid Social Security Number; 2) did not
meet qualifying income, gross income, and net tax liability requirements; 3) had income that
exceeded requirements; and 4) indicated that they can be claimed by someone else on a tax
return.
Although the accuracy rate for economic stimulus payments was very high, we identified
539,550 returns (0.4 percent) for which our calculation of the payment and the IRS’ calculation
did not agree. These differences include:
•   375,931 returns for which individuals did not receive $142.4 million in Additional Child Tax
    Credits they were entitled to. Taxpayer and/or tax preparation software errors resulted in
    these individuals not receiving the child portion of the economic stimulus payment. These
    errors relate to not checking the Child Tax Credit qualifying child box on their tax returns as
    required.6 The IRS initially responded that it could not allow the child portion of the
    economic stimulus payment in these instances because eligibility for the Child Tax Credit
    cannot be determined from information on the tax return. The IRS subsequently announced
    that it will issue the additional child portion of the economic stimulus payment to these
    individuals in July 2008.
    The IRS is currently issuing “recovery” payments to 218,533 individuals. We will be
    assessing the differences between our figures and those of the IRS as part of the next phase
    of our review. The difference primarily results from the IRS sending payments to only those
    individuals who had listed children but had not checked the Child Tax Credit qualifying box
    for any child listed. The IRS will not send a recovery payment to a taxpayer who had

6
 The IRS determined that some tax preparation software used by tax preparers did not check the Child Tax Credit
qualifying child box on the return when 1) the child qualified for the Credit, but 2) the taxpayer could not claim it
because his or her income was above the Child Tax Credit phaseout range. We considered these taxpayer errors
because the taxpayers signed the returns.
                                                                                                               Page 4
                  Evaluation of the Computation of Economic Stimulus Payments




    checked the Child Tax Credit qualifying box for one child but not for another child listed.
    Our identification included any child who 1) was listed without the Child Tax Credit
    qualifying box checked, 2) met the relationship, and 3) was under age 17.
•   129,488 economic stimulus payments totaling approximately $68 million that should not
    have been paid but were paid because programming did not include qualified
    self-employment losses in the determination of eligibility. The IRS, with the Department of
    the Treasury’s concurrence, is computing self-employment income by applying a multiplier
    against the deduction for self-employment tax reported on the tax return instead of applying
    the multiplier against the actual self-employment income or loss reported on various tax
    schedules. The IRS and the Department of the Treasury indicated that they were aware that
    this methodology did not address losses on Form 1040 Profit or Loss From Business
    (Schedule C) and Profit or Loss From Farming (Schedule F). The Department of the
    Treasury chose to use the self-employment tax deduction method because, given the time
    available, programming the calculation of the economic stimulus payment for every possible
    self-employment scenario would have been too complex. The Department of the Treasury
    indicated that the method it is using would result in a correct payment for most individuals.
    However, we raised the same concern in our review of the 2003 Child Tax Credit advance
    payment.7 The IRS used the same method to estimate self-employment income in its
    calculation of the Child Tax Credit advance payment resulting from enactment of the
    Jobs and Growth Tax Relief Reconciliation Act of 2003.8 In that review, we estimated that
    91,000 taxpayers received approximately $39 million in Child Tax Credit advance payments
    that they were not entitled to because the IRS did not include losses reported on the
    Schedules C and F.
•   33,658 returns for which taxpayers did not receive $19.4 million they were entitled to
    because of the Department of the Treasury decision to use the self-employment tax deduction
    reported on the tax return to estimate self-employment income. The method used did not
    include all qualified self-employment income when determining eligibility to receive a
    payment. These errors affect clergy and other individuals whose income is not subject to the
    self-employment tax. We plan to review the IRS’ programming of the economic stimulus
    payments for Tax Year 2008 to ensure that these individuals will receive the payments they
    are entitled to when they file their 2008 returns.
•   149 economic stimulus payments totaling approximately $62,700 that should not have been
    paid because of the Department of the Treasury decision to use the self-employment tax
    deduction reported on the tax return to estimate self-employment income. The multiplier
    used to estimate self-employment income overestimated the individuals’ self-employment

7
  The Child Tax Credit Advance Payment Was Effectively Planned and Implemented, but a Programming
Discrepancy Caused Some Overpayments (Report Number 2004-40-042, dated January 2004).
8
  Pub. L. No. 108-27, 117 Stat. 752.
                                                                                                    Page 5
                   Evaluation of the Computation of Economic Stimulus Payments




    income. Unlike the returns discussed above, these individuals claimed a self-employment
    deduction on their tax return and did not have self-employment losses.
•   324 economic stimulus payments totaling approximately $10,019 that should not have been
    paid because the IRS used taxpayer return figures when computing the payment. Our
    payment calculation used the IRS’ computer figures on the tax returns to compute the
    economic stimulus payment, whereas the IRS used the taxpayers’ figures. As the IRS
    processes individual tax returns, its computer programs correct information or computations
    on a tax return as needed, resulting in a difference between what the taxpayer reported and
    what the IRS computer system shows. If the difference is below a set amount, the IRS will
    default to the taxpayer’s figures for purposes of figuring the income tax liability.
During the course of this review, we monitored a number of other issues related to economic
stimulus payments. The issues were monitored to identify the cause and actions taken by the
IRS to address the concerns. These included:
•   Duplicate paper tax returns were filed only to claim the economic stimulus payment. As of
    June 21, 2008, the IRS had identified 277,868 duplicate-filed tax returns. These are
    stimulus-only returns for which another tax return was filed using the same Social Security
    Number. In an effort to assist these taxpayers, the IRS established a unit in its
    Andover, Massachusetts, Campus9 to expedite the processing of the cases and minimize
    delays in issuing the economic stimulus payments. As of June 21, 2008, the IRS had
    resolved 80,952 cases (29 percent). The majority of the duplicate-filing conditions resulted
    from taxpayers inadvertently filing two tax returns. Only three returns have been determined
    to possibly involve identity theft.
•   Understanding Your Economic Stimulus Payment (Notice 1378) was sent to the wrong
    individuals. The IRS determined that between 18,000 and 22,000 Notices 1378 were issued
    to the wrong individuals. This was the result of an error by the vendor contracted to print
    and mail these notices. The vendor immediately increased its quality review controls to help
    prevent the problem from recurring.
•   Direct deposits were sent to the wrong accounts. The IRS identified a programming error
    that resulted in approximately 1,500 direct deposits being deposited into the wrong
    individuals’ financial institution accounts. These payments totaled approximately
    $1.4 million. The IRS has since corrected the error and is in the process of issuing payments
    to the entitled individuals. The IRS is working with the financial institutions to recover the
    incorrect deposits.




9
 The data processing arm of the IRS. The Campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayers accounts.
                                                                                                         Page 6
                     Evaluation of the Computation of Economic Stimulus Payments




•      A tax preparer did not correctly add the RAL indicator, which could have resulted in
       incorrect direct deposit of economic stimulus payments to the RAL accounts instead of to
       the taxpayers’ accounts. IRS officials stated on May 28, 2008, that they had been notified
       by a tax preparation firm that approximately 450,000 tax returns had been submitted to the
       IRS without the RAL indicator. The IRS, aided by the firm, was able to identify these
       accounts before the economic stimulus payments were issued. Payments for these accounts
       are being correctly issued via paper check, which is consistent with the IRS’ decision to issue
       paper checks on accounts that have a RAL. The media incorrectly reported that these
       payments were being deposited into RAL accounts.
The next phase of our assessment will evaluate IRS efforts to ensure that 1) all individuals
entitled to an economic stimulus payment receive one, and 2) the IRS complies with the
provision of the law that prevents the issuance of economic stimulus payments after
December 31, 2008. Our assessment will also evaluate IRS efforts to implement provisions
included in the Heroes Earnings Assistance and Relief Tax Act of 2008,10 which the President
signed into law on June 17, 2008. This Act amends the Economic Stimulus Act of 2008 so that
thousands of military personnel will receive an economic stimulus payment regardless of
whether they, their spouses, or their children have valid Social Security Numbers. The Joint
Committee on Taxation estimates that this provision will cost $14 million in Fiscal Year 2009.




10
     Pub. L. 110-245, 122 Stat 1624.
                                                                                               Page 7
                Evaluation of the Computation of Economic Stimulus Payments




                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the accuracy of the IRS’ computation of the
economic stimulus payment and the adequacy of controls to prevent ineligible individuals from
receiving a payment. The scope of this review was limited to an assessment of controls
established and economic stimulus payments generated by the IRS as of June 13, 2008. To
accomplish our objective, we:
I.     Determined whether the economic stimulus payments calculated by the IRS were
       accurate.
II.    Determined whether controls were in place to prevent ineligible individuals from
       receiving an economic stimulus payment. For example, we assessed the IRS’ controls to
       identify ineligible individuals who received an economic stimulus payment as a result of
       a duplicate-filing condition.
III.   Assessed the IRS’ process to ensure that eligible individuals received their economic
       stimulus payment in a timely manner.




                                                                                          Page 8
               Evaluation of the Computation of Economic Stimulus Payments




                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Russell Martin, Director
Deann Baiza, Audit Manager
John Hawkins, Lead Auditor
Sharla Robinson, Lead Auditor
Kathleen Hughes, Senior Auditor
John Mansfield, Senior Auditor
Steven Stephens, Senior Auditor
Jennie Choo, Auditor
Jane Lee, Auditor
James Allen, Computer Specialist
Kevin O’Gallagher, Computer Specialist




                                                                                    Page 9
               Evaluation of the Computation of Economic Stimulus Payments




                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Wage and Investment Division SE:W
Chief Information Officer OS:CIO
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Electronic Tax Administration and Refundable Credits, Wage and Investment Division
SE:W:ETARC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                     Page 10
    Evaluation of the Computation of Economic Stimulus Payments




                                                   Appendix IV

Management’s Response to the Draft Report




                                                          Page 11
Evaluation of the Computation of Economic Stimulus Payments




                                                      Page 12
